/.*
//

/

<■'' I;

62

NO.

IN THE
SUPREME COURT OF THE UNITD STATES
j££±

ALFRED CROSS-Petitioner,

vs.

1
FILED
JAN 3 0 2021

UNITED STATES OF AMERICA-Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO
SEVENTH CIRCUIT COURT OF APPEALS
CASE NO: 3:17-CR-30047~HJR-i

PETITION FOR WRIT OF CERTIORARI

Alfred Cross
Reg. No. 00722-027
FCI Butner
P.O. Box 1000
Butner, North Carolina 27529
In Propria persona.

//

OFFICE OF THE CLERK
SUPREME COURT. U S

QUESTION(S) PRESENTED

I.

Whether the Decision below squarely conflicts with McCarthy
v. United States and Neder v. United States, where Mr. Cross
Held a Constitutional Right to know Both the Nature and Cause
of the Charges Against him, which Included Both the Materiality
of the charge and Intent for any Plea to be valid under a Rule 11 Plea?

II

Whether the Decision Below squarely conflicts with Neder
v. United States where a plea of guilt relating to a defect in
the Indictment, affects jurisdiction of the Court, and Where
the Indictment Fails to Charge an Offense, does the Guilty
Plea Waive the defects?

III.

Whether The Decision of the District Court that it
holds jurisdiction over a Claim of Bank Fraud,
where the Bank nor victims are covered by FDIC
Insurance for any loss from Bank Fraud, conflicts
with United States v. Perez-Ceballos, intel alia, where
the charge should be a State claim, not Federal?

Certiorari-Cross

jr

LIST OF PARTIES
All Parties appear in the caption of the case on the cover.
There are no related cases to Petitioner’s knowledge.

Certiorari-Cross

11

TABLE OF CONTENTS

Opinions Below
............ ............................
Jurisdiction
............ • • •.........................
Constitutional and Statutory Provisions Involved
Statement of the Case ............................ . ...........
1. The Indictment fails to mention “intent
To defraud” or materiality
2. Mr. Cross admits he knowingly deposited
bad checks
3. Materiality of falsehood is an element of
§ 1344(1)
4. Mr. Cross tries to withdraw his guilty
plea to bank fraud
Summary of Reasons for Granting the Petition
Reasons for Granting the Petition
I. Whether the Decision below squarely
conflicts with McCarthy v. United States and
Neder v. United States, where Mr. Cross
Held a Constitutional Right to know Both the
Nature and Cause of the Charges Against
him, which Included Both the Materiality of
the charge and Intent for any Plea to be valid
under a Rule 11 Plea?
II. Whether the Decision Below squarel
conflicts with Neder v. United States where a
plea of guilt relating to a defect in the
Indictment, affects jurisdiction of the Court,
and Where the Indictment Fails to Charge an
Offense, does the Guilty Plea Waive the
defects?
I. Whether The Decision of the District Court
that it holds jurisdiction over a Claim of Bank
Fraud, where the Bank nor victims are covered
by FDIC Insurance for any loss from Bank
Fraud, conflicts with United States v. PerezCeballos, intel alia, where the charge should
be a State claim, not Federal?
Certiorari-Cross

in

1
2
3

6
9
10
15
17
23
25

25

25

29

34

Conclusion
INDEX TO APPENDICES
Judgment in a Criminal Case.....................................

Appendix A

Appellate Court Opinion, First Final Judgment, 5/22/20 .

Appendix B

Order Denying Rehearing................ •........... ..................

. Appendix C

Appellate Court Opinion, Amended Denial Rehearing ...

. Appendix D

Notice of Issuance of Mandate ....................................... .

Appendix E

Supreme Court Order, 4/19/20......... ....... • •...................

Appendix F

Petitioner’s Pro se Extension............. --...........................

Appendix G

Clerk’s Letter, 08/19/20, and Pro se Letter for Extension

Appendix H

Letters from FDIC ...........................................................

. Appendix I

Certiorari-Cross

IV

TABLE OF AUTHORITIES CITED
Page No.

Cases:
Araromi v. United States, 2014 U.S. Dist.
LEXIS 56891 * (WD Tex., April 23, 2014)...............

27

BMW ofNorth America Inc v. Gore, 517 U.S. 559 (1996)

15

Bradshaw v. Stumpf 545 U.S. 175 (2005).......-....... ......

12

Coffin v. United States, 162 U.S. 664 (1896) ...................

26

Evans v. United States, 153 U.S. 584 (1894)......... ...... -

26

Ex Parte Siebold, 100 U.S. 371 (1880)............................

30,31

In re Winship, 397 U.S. 358 (1970).................................

11

Henderson v. Morgan, 426 U.S. 637 (1976)............—

11

Lujan v. Defenders of Wildlife, 504 U.S. 555 (1992).......

33

Najera-Rodriquez v. Barr, 926 F.3d 343 (7th Cir. 2019) ..

11

Marbury v. Madison, 5 U.S. 137 (1803) ..........................

32

Mathis v. United States, 136 S.Ct. 2243 (2016)...............

15

McCarthy v. United States, 394 U.S. 459 (1969)..... ......

25, 26, 27, 28

Minnesota ex rel Hatch v. Fleet Mortgage Corp.,
158 F.Supp. 2d 962 (D. Minn. 2001).....................

33

Nederv. United States, 527 U.S. 1 (1999)......... -......... 7, 8,15,16, 23, 25, 26
31
Penry v. Lynaugh, 492 U.S. 302 (1989)................. .......
Res-NC Settlers Edge, LLC v. Settlers Edge Holding
Company, LLC, 2011 U.S. Dist. LEXIS 99728 * (Sept. 3,2011)

30

Res-NV TVL, LLC v. Towne Vista LLC, 2011 U.S. Dist.
LEXIS 124731 * (USDC,Nev. 2011).............................. .........

30

Sansone v. United States, 380 U.S. 343 (1965) ....................... •...... ••

27

TABLE OF AUTHORITIES CITED
Certiorari-Cross

v

Cdscs*
Shawv. United States, 137 S.Ct. 462 (2016)............ ......................

Page No.

Skilling v. United States, 561 U.S. 358 (2010)..................... .........*•

17

State v. First Horizon Home Loan Corp.,
No 272/2004 (N.Y., Sup. Ct., filed Jan. 16, 2004)................ ••

33

United States v. Adepoju, 756 F.3d 250 (4th Cir. 2014)...................

29

United States v. Bean, 18 F.3d 1367 (7th Cir., 1994)..... ...... ...........

9,21,27

United States v. Brandon, 298 F.3d 307 (4th Cir. 2002) ..................•

32

United States v. Doherty, 969 F.2d 425 (7th Cr. 1999)................ .

..7

United States v. Flanders, 491 F.3d 1197 (.10th Cir. 2007)........

32

17

United States v. Forchette, 220 F.Supp. 2d 914 (E. Wis. DC, 2002)

24, 29

United States v. Freed, 921 F.3d 716 (7th Cir. 2019)................... .

17

United States v. Henderson, 915 F.3d 1127 (7th Cir. 2019)......... •••

11

United States v. Holzer, 816 F.2d 304 (7th Cir.), Vacated,
484 U.S. 807 (1987), Opinion on Remand, 840 F.3d
1343 (7th Cir. 1988)................................................................ .

16

United States v. Locklear, 97 F.3d 196 (7th Cir. 1996)....................

11

United States v. Lyons, 898 F.2d 210 (1st Cir. 1990)......................

27

United States v. Norton, 108 F.3d 133 (7th Cir. 1997)....................

16

United States v. Omer, 395 F.3d 1087 (9th Cir. 2005)....................

16

United States v. Perez-Ceballos, 907 F.3d 863 (5th Cir. 2018).......

24,29

United States v. Raines, 326 U.S. 17 (1960) ..................................

32

United States v. Taylor, 111 F.3d 434 (7th Cir. 2015)....................

15

United States v. United States Coin & Currency,
401 US. 715 (1971)........................................ .....................

31,32

United States v. Wells, 177 F.3d 603 (7th Cir. 1999)......................

24, 29

TABLE OF AUTHORITIES CITED
Certiorari-Cross

vi

Page No.
6, 27

C'3$c$<

Williams v. United States, 458 U.S. 279 (1982)
Statutes and Rules:
Fed. Rules Crim. Pro., Rule 11......... •.............

26, 27, 28

S.Ct. Rule 13.1............................ ••..................

1

S.Ct. Rule 13.3........ ....... .................... ..........

1

720 ILCS 5/17-1 (B)(l)(2)..............................

5,6

Title 18 U.S.C. § 20.................... ...................

17

Title 18 U.S.C. § 1344 ................................. ••

5, 6, 9,15,16, 17, 25, 32

Title 18 U.S.C. § 1346 ....................................

........ ,................ 5, 6, 17

Title 28 U.S.C. § 1254 ......... .......... ...........

3

U.S. Constitution:
U.S. Const., Art. Ill.....................................

3, 4, 26, 28, 33

U.S. Const., Amend. 5......... ............... .

.... 4, 26, 28, 33

U.S. Const., Amend. 6........ ........... ........... < • •

...4, 26, 28, 33

U.S. Const., Amend. 9....................................

....4, 26,28,33

Other:
Friendly, Ts Innocence Irrelevant? Collateral Attack on
Criminal Judgments, 38 U. Chi. L. Rev. 142,151 (1970)

31

Pattern Criminal Jury Instructions of the
Seventh Circuit @ 452 (2012 Ed.).................................

7

Certiorari-Cross

Vll

IN THE
SUPREME COURT OF
THE UNITED STATES OF AMERICA
ON PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the
Judgment below.
OPINIONS BELOW
The opinions of the United States District Court appear in Appendix A to
the petition and is unpublished.
The first opinion of the United States court of appeals appears at Appendix
B to the petition and is unpublished.
A timely petition for rehearing was filed and that order is at Appendix C to
the petition and is unpublished.
The amended opinion of the United States court of appeals appears at
Appendix D to the petition and is unpublished.
The final mandate of the United States court of appeals appears at Appendix
E to the petition and is unpublished. That date was June 26, 2020.
Petitioner wrote the Supreme Court for an extension and court extended the
certiorari filing “150 days from the date of the lower court judgment, order
denying discretionary review, or order denying a timely petition for rehearing. See
Rules 13.1 and 13.3.” A copy of this court’s order of March 19,2020 appears at
Appendix F to the petition and is unpublished. Notably, 150 days from the
mandate of June 26, 2020 would be November 23,2020.

Petition for Certiorari-Cross
From Seventh Circuit to Supreme Court

1

On September 1, 2020 Petitioner filed a pro se document explaining his case
and requesting an additional extension of time of “90 days” to file his certiorari.
Although the letter did not address the Covid-19 issue, he explains his issue here.
Because of Covid-19 the prison is on continuous lock down. This lockdown denies
all access to any law library and no books can be requested making drafting any
certiorari futile. A Sixty-day extension would from the 150 day of November 23,
2020 would be January 22, 2021, a Friday. A copy of his pro se document appears
at Appendix G to the petition.
On October 19, 2020, the Supreme Court Clerk returned a stamped copy of
petitioner’s pro se document and a letter addressing the extension of time
document he filed September 11, 2020. The Clerk reiterated the 150-day extension
but failed to acknowledge that an extension could be extended under Covid-19,
taking the document as a petition for certiorari instead of solely an extension of
time. The Clerk did not say if an extension was granted or not. A copy of that letter
appears in Appendix H of the petition and is unpublished.
Because petitioner is on continuous lockdown, his hardships to obtain this
Petition to be made, he prays this Court will accept the second extension requested
and this certiorari, reinstating it even though a few days late.
JURISDICTION
This case arises from a federal court. The date on which the United States
Court of Appeals decided my case the first time was May 22, 2020. A timely
petition for rehearing was denied by the United States Court of Appeals on June
18, 2020 and the Court issued an Amended decision of the May 22,2020 decision.
The mandate issued June 26,2020.
An extension of time was requested for filing the writ of certiorari and was
granted on March 19,2020, granting “150-day extension from the date of the lower
Petition for Certiorari-Cross
From Seventh Circuit to Supreme Court.

2

court judgment” attached in Appendix F. A second extension request was made
and filed on September 11, 2020. No decision on this extension was made.
The jurisdiction of this Court is invoked under 28 U.S.C. § 1254 (1).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Constitutional provisions in pertinent part involved states:
U.S. Const., Article III:
Section 1.
The judicial power of the United States, shall be vested in one
Supreme Court, and in such inferior courts as the Congress may from
time to time ordain and establish. The judges, both of the supreme and
inferior courts, shall hold their offices during good behaviour, and
shall, at stated times, receive for their services, a compensation, which
shall not be diminished during their continuance in office.
Section 2.
The judicial power shall extend to all cases, in law and equity, arising
under this Constitution, the laws of the United States, and treaties
made, or which shall be made, under their authority;~to all cases
affecting ambassadors, other public ministers and consuls;~to all
cases of admiralty and maritime jurisdiction;-to controversies to
which the United States shall be a party;—to controversies between
two or more states;—between a state and citizens of another state;—
between citizens of different states;-between citizens of the same
state claiming lands under grants of different states, and between a
state, or the citizens thereof, and foreign states, citizens or subjects.
In all cases affecting ambassadors, other public ministers and consuls,
and those in which a state shall be party, the Supreme Court shall have
original jurisdiction. In all the other cases before mentioned, the
Supreme Court shall have appellate jurisdiction, both as to law and
fact, with such exceptions, and under such regulations as the Congress
shall make.
The trial of all crimes, except in cases of impeachment, shall be by
jury; and such trial shall be held in the state where the said crimes
Petition for Certiorari-Cross
Prom Seventh Circuit to Supreme Court

shall have been committed; but when not committed within any state,
the trial shall be at such place or places as the Congress may by law
have directed.
U.S. Const., Art. III.
No person shall be held to answer for a capital, or otherwise
infamous crime, unless on a presentment or indictment of a grand
nor shall any person be subject for the same offense to be
jury.
twice put in jeopardy of life or limb; nor shall be compelled in any
criminal case to be a witness against himself, nor be deprived of
life, liberty, or property, without due process of law; ***.
U.S. Const., Amend. 5.
In all criminal prosecutions, the accused shall enjoy the right to a
speedy and public trial, by an impartial jury of the state and district
wherein the crime shall have been committed, which district shall
have been previously ascertained by law, and to be informed of the
nature and cause of the accusation, to be confronted with the
witnesses against him; to have compulsory process for obtaining
witnesses in his favor, and to have the assistance of counsel for his
defense.
U.S. Const., Amend. 6 (Emph. Added).
The enumeration in the Constitution, of certain rights, shall not be
construed to deny or disparage others retained by the people.
U.S. Const., Amend. 9.
The statutory provisions in pertinent part involved states:
(B) Bad checks.
A person commits a deceptive practice when:
(1) With intent to obtain control over property or to pay for
property, labor or services of another, or in satisfaction of an
obligation for payment of tax under the Retailers' Occupation Tax
or
Act or any other tax due to the State of Illinois, he or she issues
‘
delivers a check or other order upon a real or fictitious depository
for the payment of money, knowing that it will not be paid by the
Petition for Certiorari-Cross
From Seventh Circuit to Supreme Court

4

depository. The trier of fact may infer that the defendant knows that
the check or other order will not be paid by the depository and that
the defendant has acted with intent to defraud when the defendant
fails to have sufficient funds or credit with the depository when the
check or other order is issued or delivered, or when such check or
other order is presented for payment and dishonored on each of 2
occasions at least 7 days apart. In this paragraph (B)(1), "property"
includes rental property (real or personal).
(2) He or she issues or delivers a check or other order upon a
real or fictitious depository in an amount exceeding $150 in
payment of an amount owed on any credit transaction for property,
labor or services, or in payment of the entire amount owed on any
credit transaction for property, labor or services, knowing that it
will not be paid by the depository, and thereafter fails to provide
funds or credit with the depository in the face amount of the check
or order within 7 days of receiving actual notice from the
depository or payee of the dishonor of the check or order.
720ILCS 5/17-1(B) (1) (2), P.A. 96-1432, eff. 1-1-11; 96-1551, eff. 7-1-11.
Whoever knowingly executes, or attempts to execute, a scheme
or artifice(1) to defraud a financial institution; or
(2) to obtain any of the money s, funds, credits, assets, securities,
or other property owned by, or under the custody or control of, a
financial institution, by means of false or fraudulent pretenses,
representations, or promises;
shall be fined not more than $1,000,000 or imprisoned not more
than 30 years, or both.
18 U.S.C. § 1344 (1) (Pub. L. 101-647, title XXV, §2504®, Nov. 29, 1990, 104
Stat. 4861).
For the purposes of this chapter, the term "scheme or artifice to
defraud" includes a scheme or artifice to deprive another of the
intangible right of honest services.
Petition for Certiorari-Cross
From Seventh Circuit to Supreme Court

5

18 U.S.C. § 1346, (Pub. L. 100-690, title VII, §7603(a), Nov. 18, 1988, 102 Stat.
4508).
STATEMENT OF THE CASE
Alfred Cross reports that he has been self-employed in the real estate
industry for the better part of the past three decades. PSR f 108. He focused on
unattractive parts of the sector—distressed hotels, bank foreclosures, and other
commercial properties—and his methods were sometimes unsavory as well. Id.
Between April 2011 and March 2015, he unlawfully obtained funds from seven
southern Illinois banks by knowingly depositing Non-Sufficient-Fund checks
drawing on Mr. Cross’s California bank account. PSR ff 11-31. In total the banks
gave Mr. Cross about $516,000 before realizing the checks were NSF. PSR f 32.
Civil lawsuits and state criminal prosecutions followed. PSR ff 12, 15-16, 18, 20,
22, 25-26, 28, 30-31. Much of the money was returned in one form or another. By
December 2018, Mr. Cross had made full or almost full restitution to three of the
seven banks; one bank waived its right to collect after foreclosing on properties;
and the remaining banks either held civil judgments or a criminal restitution order
against Mr. Cross. PSR f 34.
Knowingly depositing a bad check is a state crime in Illinois. 720ILCS
5/17-1(B). It is not necessarily a federal crime, because presenting an NSF check
does not involve making a “false statement.” Williams v. United States, 458 U.S.
279, 284 (1982). Knowingly executing a scheme to defraud a bank, on the other
hand, is a federal crime, 18 U.S.C. § 1344(1), and federal prosecutors concluded
that Mr. Cross had committed that offense through a scheme to deposit bad checks.
After unsuccessfully trying to work out a plea to a criminal information, the U.S.
Attorney obtained an indictment charging Mr. Cross with five counts of bank

Petition for Certiorari-Cross
From Seventh Circuit to Supreme Court

6

fraud. R.36. Each count alleged that Mr. Cross had executed his scheme to defraud
by knowingly depositing an NSF check. Id.
Before Neder v. United States, 527 U.S. 1 (1999), this Court had held that a
scheme to kite checks could constitute bank fraud even though that conduct does
not involve false representations. See United States v. Doherty, 969 F.2d 425,429
(7th Cir. 1992). But in Neder, the Supreme Court held that materiality of falsehood
is an element of bank fraud. When Mr. Cross was charged, bank fraud thus had
five elements:
1. There was a scheme to defraud a bank; and
2. The defendant knowingly carried out the scheme; and
3. The defendant acted with the intent to defraud the bank; and
4 The scheme involved a materially false or fraudulent pretense,
representation, or promise; and
5. The bank’s deposits were insured by the FDIC1 (Appendix I).
Pattem Criminal Jury Instructions of the Seventh Circuit at 452 (2012 ed.) (plus
2015-2017 and 2018 changes).
In delineating those elements, the Committee on Federal Criminal Jury
Instructions of the Seventh Circuit recognized the tension between pre- and post1 The District Court contends it obtained jurisdiction over the case, which should be a State
action because FDIC insured the funds of the bank. In Document 124, filed 05/29/2018,
“Defendant’s Summary of Plea Hearing, Request for Status,” Mr. Cross explained how an
insufficient check, even though no funds cover it, can constitute an “unsecured loan” the bankers
verify and gives the Greenville Bank example the bank gave authority to write checks above
what was in the account by overdraft protection. In Document 124-1, at pg. 43, Mr. Cross
obtained a letter from FDIC through a friend. There, the FDIC states “As previously stated,
financial institutions typically purchase private insurance to cover losses from a variety 0
incidents, such as robbery, theft, fraud, or embezzlement, but the FDIC is not i^vedwith the
purchase or coverage of such private insurance.” The FDIC makes plain that The FDIC does
not reimburse banks or individuals for loss due to robbery, theft, fraud, or embezzlement. That
the FDIC only steps in if the bank fails or is closed by regulatory mandates to insure deposits
made at that point. FDIC does not cover bank fraud, so how did the Court obtain jurisdiction
over a State bank action?
Petition for Certiorari-Cross
From Seventh Circuit to Supreme Court

7

Neder cases. Id. at 454-55. Relieving that tension, though was beyond the
Committee’s authority. Id. at 455.
No tension hung in the air when Mr. Cross entered an open plea of guilty
to all counts, though, because both the district court and the United States proposed
that bank fraud comprised only four elements:
1. There was a scheme to defraud a bank; and
2. The defendant knowingly executed the scheme; and
3. The defendant acted with the intent to defraud; and
4. The bank’s deposits were insured by the FDIC.
Plea Tr. at 13. The prosecutor provided a factual basis to support each of those
four elements. Id. at 18-23. He did not mention a material misrepresentation or
omission, however. Mr. Cross was asked if he agreed with the factual basis. He
did—so far as the checks were concerned. “I knew at the time that I deposited
those checks some of them didn’t have sufficient funds to cover them. Id. at 24.
The court accepted the guilty plea and set the case for sentencing. Id. at 25.
That’s when the trouble really started. Mr. Cross started having problems
with his attorney, and at a hearing two months after the guilty pleas were entered
he told the court he wasn’t sure he was actually guilty of bank fraud. Though he
did not at that time move to withdraw his plea, the court warned him: “I have never
let anyone withdraw a plea. I don’t know of any reason why I would here. All
that’s left to do is the sentencing hearing.” Id. at 19. Nevertheless, the court
appointed a new attorney to represent Mr. Cross at that hearing. Mr. Cross
immediately filed a pro se motion to withdraw his plea. R. 124.
The court struck the pleading because Mr. Cross was represented by counsel.
R.125. But the new lawyer was not sympathetic to Mr. Cross’s reservations about

Petition for Certiorari-Cross
From Seventh Circuit to Supreme Court

8

his guilt either and refused to file a counseled motion. R.153 at 6 . So before
sentencing Mr. Cross filed another pro se motion to withdraw his guilty plea
alongside a motion to terminate counsel. R.152, 153. He explained that his deposits
of NSF checks involved no misrepresentations. R.152 at 6-7. He still did not know
“whether [he] violated the offense charged, Bank Fraud

1344” under United

States v. Bean, 18 F.3d 1367, 1370 (7th Cir. 1994), which notes that the bank fraud
statute “does not attach criminal penalties to the unadorned writing of rubber
checks,” R.152 at 7. He asked the court to allow him to withdraw his plea.
Id. at 8.
This time, the court addressed the pleading on the merits. Its perspective had
not changed, though. “[Y]ou acknowledged that you knew that there wasn’t
enough to cover the checks when you deposited them,” Sent. Tr. at 5. So the
motion was denied on the merits: “[T]here is just simply no reason at all, let alone
a fair and just reason, at this point to warrant withdrawal of the guilty plea. ” Id. at
17. The court also denied the motion because it was filed pro se. Id.
The district court then sentenced Mr. Cross to 78 months in prison, at the
high end of his Guidelines range, to be followed by a 5-year term of supervised
release. R.160 at 2-3. It also ordered $111,698.98 in total restitution to two banks.
Id. at 5. Mr. Cross then filed a timely notice of appeal. R.163.
1. The indictment fails to mention “intent to defraud” or materiality.
Let us return to the indictment2. R. 36. It alleged five counts of bank fraud
under 18 U.S.C. § 1344(1) by describing a scheme to defraud seven banks. Id. at 2.
The object of the scheme was to fraudulently obtain more than $500,000 from the
banks. Id. Mr. Cross opened accounts at each of the banks under the names of

2 The document’s title, “Superseding Indictment,” is a misnomer. The indictment “superseded” a
criminal information, not any previous indictment.
Petition for Certiorari-Cross
From Seventh Circuit to Supteme Court

9

businesses he purportedly owned or operated. Id. Once the accounts had been open
for a period of time, Mr. Cross knowingly deposited NSF checks that drew on
other bank accounts Mr. Cross owned or controlled. Id. at 2-3. Before the banks
knew what was happening, Mr. Cross would then withdraw the funds from the
victim banks. Id. at 3. The indictment does not explicitly allege that Mr. Cross
acted with intent to defraud or that the scheme involved a material
misrepresentation.
Each count then recited a specific instance when Mr. Cross “knowingly
executed” the scheme to defraud by making a deposit using a check he knew to
be NSF:
• Count 1 involved a deposit into the “Al L. Cross—Consolidated Billing
Account” at Washington Savings Bank using a check drawn on an account
entitled “Alfred L. Cross—Cross/Hart/Page—Special Account” at County
Bank in Fresno, California.
• Count 2 involved a deposit into the “Premier Business Properties” account
at The Farmers and Merchants National Bank using a check drawn on an
account entitled “Giant Hospitality Group” at WestAmerica Bank.
• Count 3 involved a deposit into the “Whitehouse Business Group” account
at First Southern Bank using a check drawn on the same Giant Hospitality
Group account in Count 2.
• Count 4 involved a deposit into a different “Whitehouse Business Group”
account, this time at State Bank of Whittington, using a check again drawn
on the Giant Hospitality Group account.
• Count 5 involved a separate deposit at State Bank of Whittington, with the
same particulars as that in Count 4.
Id. at 3-5.
2, Mr. Cross admits he knowingly deposited bad checks.
Mr. Cross was 75 years old when he entered a guilty plea in March 2018.
Plea Tr. at 5. He entered the courtroom that day in full shackles handcuffs, leg
10
Petition for Certiorari-Cross
From Seventh Circuit to Supreme Court

irons, and connecting chains—and remained so constricted throughout his plea to
bank fraud, in accordance with the district court’s regular practice. See R.167 at
13-14.3 No one voiced concern that shackling an elderly man accused of fraud
might be an affront to the dignity of the proceedings or undermine his ability to
participate in the proceedings. But see United States v. Henderson, 915 F.3d 1127,
1137 (7th Cir. 2019) (Hamilton, J., dissenting). Indeed, no one made his shackling
a part of the record of the plea hearing at all.
The Government in its Reply Brief set forth in its facts that Mr. Cross.
But the government fails to note that Mr. Cross does not make a
couple other arguments too. Mr. Cross did not argue that the record
contains no factual basis to support a conviction, nor did he argue that
he is actually innocent of bank fraud. “[T]he question here is not
whether Mr. Cross actually committed fraud or merely deposited
checks.” Def. Br. at 43. Instead, Mr. Cross argued that he did not enter
a knowing and voluntary plea of guilty. See Henderson v. Morgan,
426 U.S. 637, 644-45 (1976) (“We assume ... that the prosecutor had
overwhelming evidence of guilt available. ... Nevertheless, such a
plea cannot support a judgment of guilt unless it was voluntary in a
constitutional sense.”).
To obtain a conviction, the prosecutor must prove each element
of a crime beyond a reasonable doubt to a jury. In re Winship, 397
U.S. 358, 364 (1970). Alternatively, the accused may agree that he
committed each element of the crime and plead guilty. NajeraRodriguez v. Barr, 926 F.3d 343, 349 (7th Cir. 2019). When the
prosecutor fails to prove every element, the conviction must be
vacated, regardless of whether the defendant is actually innocent.
United States v. Locklear, 97 F.3d 196, 199-200 (7th Cir. 1996).
Likewise, when the accused does not agree to facts establishing every
element, his guilty plea must be vacated, regardless of whether he is
3 Later, Mr. Cross intended to move to remove the shackles at his sentencing hearing in a pro se
motion R.167 at 13, but abandoned the idea after his other pro se motions mentioned here
received a poor reception. R.167 at 1. He thus sent a copy of the proposed motion to the Court
only after he was sentenced. Id.
11
Petition for Certiorari-Cross
From Seventh Circuit to Supreme Court

actually innocent or not. Bradshaw v. Stumpf, 545 U.S. 175, 183
(2005).
Government Reply Brief at pg. 1-2.
The district judge conducted the plea hearing and generally covered the
topics mentioned in Rule 11 of the Federal Rules of Criminal Procedure. The
judge directed the prosecutor to describe the elements of the offense, and as
noted above, he informed Mr. Cross that bank fraud had four elements:
1. There was a scheme to defraud a bank; and
2. The defendant knowingly executed the scheme; and
3. The defendant acted with the intent to defraud; and
4. The bank’s deposits were insured by the FDIC.
Plea Tr. at 12-13. Mr. Cross affirmed that he understood the government would
need to prove those four elements to establish guilt. Id. at 13-14.
To establish a factual basis for the plea, the district court again enlisted the
help of the prosecutor, “I know there is a lot of conduct at issue here. So I’m not
going to specifically ask Mr. Cross to recite what they did. But, Mr. Cross, I’m
going to ask the government to summarize what their evidence would be if we
had a trial in this case and get your acknowledgment that the government could
prove that.” Id. at 18.
The government’s factual basis tracked the allegations in the indictment. Mr.
Cross owned both Global Investment Group and Giant Hospitality Group, and he
set up bank accounts for both companies in states other than Illinois. Id. He then
opened up separate accounts at seven southern Illinois banks, all of which were
insured by the FDIC4. Id. at 18-19. He then deposited large checks into those

4 Again, FDIC does not cover bank fraud, so how did the Court obtain jurisdiction over a State
action? See Footnote 1 above.
12
Petition for Certiorari-Cross
From Seventh Circuit to Supreme Court

accounts drawn on the out-of-state accounts he owned, knowing that the out-ofstate accounts did not contain sufficient funds to cover the checks. Id. And before
the banks could discover the checks were bad, Mr. Cross withdrew most, if not all,
of the money from the deposited checks. Id. The factual basis added some flesh to
the bare allegations on each count:
• After depositing about $19,000 at Washington Savings Bank in April
2011, Mr. Cross withdrew about $13,000 in cashier’s checks payable to
himself and his creditors before the bank learned that the check bounced.
(Count 1)
• Mr. Cross opened an account at The Farmers and Merchants National Bank
in the name of “Premier Business Properties” in March 2013. Three
months later, he deposited $148,000 into the account using a bad check.
Mr. Cross then withdrew nearly $122,000 in the form of nine cashier’s
checks before the check bounced. (Count 2)
• In September 2013, Mr. Cross opened an account for his “Whitehouse
Business Group” at the First Southern Bank. A month later, he deposited a
bad check for $38,000 and withdrew about $34,000 of that amount in
cashier’s checks before the bank discovered the check was bad. (Count 3)
• And in March 2014, Mr. Cross opened another “Whitehouse Business
Group” account at the State Bank of Whittington. Two months later he
deposited two bad checks: one for $76,600 (Count 4) and one for $33,400
(Count 5). He used that money to buy buildings worth about $35,000 from
the bank. He also withdrew $67,500 in cashier’s checks and cash
withdrawals.
Id. at 20-23. “In addition,” the prosecutor concluded, “we would prove that the
defendant acted with intent to defraud.” Id. at 23. The court was satisfied with that
factual basis, so it turned to Mr. Cross: “[D]o you agree with the government’s
summary about what you did?” Id. He did, with some reservations.
“Those checks that he’s talking about, yes. And you can ask me
where the money went to as far as he’s talking about the monies that I
Petition for Certiorari-Cross
From Seventh Circuit to Supreme Court

13

drawed out of there. Like he talked about the buildings and the
Whittington bank. We—I think we’ve got most of this restitution has
been paid ... by selling some of these buildings that I bought from
different banks and some properties I had. The buildings in
Whittington bank we’ve got working out something on that. ... But a
lot of that money has been paid.”
“Yes, he’s—when he talked about the checks being deposited,
the majority of those checks, that he says, I knew at the time that I
deposited those checks there wasn’t sufficient funds to cover those
checks from the payee bank. They gave me instant credit, and some I
signed notes for, and such. But yes, he’s pretty accurate on the banks
and such as that.”
Id. at 23-24. The court found Mr. Cross’s admission satisfactoiy, even
though the Court thought some of his response related to sentencing
issues, not guilt:
THE COURT: [W]e will talk about the restitution, what’s owed,
what’s been paid, what’s outstanding, at the sentencing hearing. But I
just wanted to make sure that you agree that the government could
prove what they say they could prove with respect to the elements of
the offense of bank fraud.
MR. CROSS: Yes.
THE COURT: Okay.
MR. CROSS: I knew at the time that I deposited those checks
some of them didn’t have sufficient funds to cover them. They gave
me credit for it; but yes.
Id. at 24. Neither side then requested any further discussion, so the court solicited
and accepted Mr. Cross’s guilty pleas to Counts 1—5. Id. at 25. The court found that
Mr. Cross had entered a knowing and voluntary plea supported by “an independent
basis in fact containing each of the essential elements of the offense.” Id. at 25-26.
Mr. Cross was not advised of the elements of the offense.
Petition for Certiorari-Cross
From Seventh Circuit to Supreme Court

14

3. Materiality of falsehood is an element of § 1344(1).
In the Government’s Response brief they addressed materially as they
believed it applied, which was contrary to Defendant’s Opening Briefs contention
under Neder. They wrote:
The answer to the first question is easy. “We hold that
materiality of falsehood is an element of the federal mail fraud, wire
fraud, and bank fraud statutes.” Neder v. United States, 527 U.S. 1, 25
(1999). That is a holding of the Supreme Court. The government thinks
the Supreme Court got it wrong, because Neder did not involve check
kiting, and the Court did not consider the legislative history behind the
bank fraud statute. Gov’t Br. at 32. Those are not reasons to ignore a
holding of the Supreme Court, though. The government’s argument that
materiality of falsehood is not an element of bank fraud is foreclosed
by Supreme Court precedent. The most this Court can do is find that
the government has preserved the issue for further review. See United
States v. Taylor, 111 F.3d 434,439^10 (7th Cir. 2015).
The government also tries to distinguish Neder. It suggests that a
“fair reading” of the holding is that “materiality is an element of the
bank fraud statute,” but it argues that “materiality” does not require a
falsehood. Gov’t Br. at 33. It is better to just take the Supreme Court at
its word: “We hold that materiality of falsehood is an element of the
federal mail fraud, wire fraud, and bank fraud statutes. Neder, 527
U.S. at 25 (emphasis added). “[A] good rule of thumb for reading our
decisions is that what they say and what they mean are one and the
same.” Mathis v. United States, 136 S. Ct. 2243, 2254 (2016). In
arriving at its holding, the Court adopted the well-settled meaning of
“fraud” from the common law:
[At common law,] the well-settled meaning of “fraud”
required a misrepresentation or concealment of material fact.
Indeed, as the sources we are aware of demonstrate, the
common law could not have conceived of “fraud” without
proof of materiality. See BMW ofNorth America, Inc. v. Gore,
517 U.S. 559, 579 (1996) (“[AJctionable fraud requires a
material misrepresentation or omission”).
Petition for Certiorari-Cross
From Seventh Circuit to Supreme Court

15

Neder, 527 U.S. at 22 (emphasis in original; internal citation omitted).
Fraud requires a misrepresentation or concealment of material fact. A
scheme to defraud a financial institution does as well. Neder is not
ambiguous on that point. Neder upset this Court s precedent in check­
kiting cases. In our opening brief, we described competing views
within the circuit before Neder on how fraud should be defined. Def.
Br. at 32. On the one hand, the Court had embraced a view of fraud that
depends only on whether “the scheme demonstrated a departure from
fundamental honesty, moral uprightness or fair play and candid
dealings in the general life of the community.” United States v. Norton,
108 F.3d 133, 135 (7th Cir. 1997); accord United States v. Omer, 395
F.3d 1087, 1089 (9th Cir. 2005). On the other hand, the Court had
cautioned that that standard “cannot have been intended, and must not
be taken, literally,” because it is “much too broad and ... would put
federal judges in the business of creating what in effect would be
common law crimes, i.e., crimes not defined by statute.” United States
v. Holzer, 816 F.2d 304, 309 (7th Cir.), vacated, 484 U.S. 807 (1987),
opinion on remand, 840 F.3d 1343 (7th Cir. 1988). The Supreme Court
in Neder did not endorse the former, amorphous standard; instead, it
hewed to the well-settled meaning of fraud, which “requires a
misrepresentation or concealment of material fact. 527 U.S. at 22. The
Court’s previous understanding that the bank fraud statute was broad
enough to encompass schemes that do not involve material falsehoods
was abrogated by Neder.
In a footnote, the government argues that the materiality requirement of
Neder applies only to § 1344(2), because “schemes to defraud are, by
definition, material.” Gov’t Br. at 38-39 n.9. That has it backwards.
The reason “materiality of falsehood” is an element of the federal bank
fraud statute is because § 1344(1) uses the term scheme to defraud.
Neder, 527 U.S. at 21-25; Def. Br. at 31. “We granted certiorari... to
decide whether materiality is an element of a ‘scheme or artifice to
defraud’ under the federal ... bank fraud (§ 1344) statute[].” Neder, 527
U.S. at 20 (emphasis added). The Court’s five-page discussion focuses
on what the term “scheme or artifice to defraud” means. Id. at 21-25.
Only § 1344(1) prohibits a scheme or artifice to defraud; section
1344(2) prohibits schemes or artifices to obtain property. Neder is
meaningless if “schemes to defraud are, by definition, material.” Gov’t
Petition for Certiorari-Cross
From Seventh Circuit to Supreme Court

16

Br. at 38-39 n.9. The government’s belief that it need not prove as an
element materiality of falsehood under § 1344(1) is simply foreclosed
under Neder.
The government also suggests that taking the Supreme Court at its
word would render § 1344(1) superfluous, because § 1344(2) already
prohibits obtaining property from banks by means of false or fraudulent
pretenses, representations, or promises. Gov’t Br. at 33-35. It ignores
that § 1344(1), by targeting schemes to defraud, also criminalizes
schemes to defraud a financial institution of intangible rights, not just
property. 18 U.S.C. § 1346. “The two subsections overlap substantially
but not completely.” Shaw v. United States, 137 S. Ct. 462, 469 (2016).
And to the extent that § 1344(1) regulates little conduct not already
addressed by § 1344(2), that is a consequence of the Supreme Court’s
decisions in both Neder and Skilling v. United States, 561 U.S. 358,
408-09 (2010), which narrowly construed § 1346. The definition of
fraud under § 1344(1) reflects the common law, Shaw, 137 S. Ct. at
467, and the common law requires a misrepresentation or concealment
of material fact. Neder, 527 U.S. at 22.
The elements of bank fraud are straightforward after Neder:
A bank fraud conviction requires the government prove (1)
there was a scheme to defraud a financial institution; (2) the
defendant knowingly executed or attempted to execute the
scheme; (3) the defendant acted with the intent to defraud; (4)
the scheme involved a materially false or fraudulent pretense,
representation, or promise; and (5) at the time of the charged
offense the entity was a ‘financial institution’ within the
meaning of 18 U.S.C. §20.
United States v. Freed, 921 F.3d 716, 722 (7th Cir. 2019) (citing Shaw,
137 S. Ct. at 465). It is axiomatic that the elements of an offense do not
change depending on how the offense is committed. The Court’s prior
understanding of the bank fraud statute was overruled in Neder.
4. Mr. Cross tries to withdraw his guilty plea to bank fraud.
In May 2018, two months after counseling his client to plead guilty, Mr.
Cross’s appointed attorney, William Margulis, moved to withdraw based on a
Petition for Certiorari-Cross
From Seventh Circuit to Supreme Court

17

deterioration of the attorney-client relationship. R.l 13 at 2. At a hearing on the
motion, Mr. Cross expressed his frustration with the many errors he perceived in
the presentence investigation report. 5/23/18 Tr. at 7-9. In particular he felt that the
Sentencing Guidelines calculation was inaccurate. Id. at 12. And he was not
convinced that he was even guilty of the offense.
I have some reservation that I’m guilty of some of this. And it’s went
from the day I walked in the door November 10th 2016 in [Assistant
Federal Public Defender] Tom Gabel’s office. [Assistant U.S.
Attorney] Mr. Verseman, I met him, and the FBI agent. I told them
the truth. I told them that I knew when I deposited them checks that
some of them wasn’t good at the time. But there’s some cases, one
right here in the Seventh Circuit, that just making that deposit....
Now, if I kited them, that’s a different story. And I brought that issue
up with Mr. Gabel and I brought it up with [Mr. Margulis]. .. . I’ve
not said anything and I’ve not filed anything about him, as I did with
Mr. Gabel. And I just — I have some reservation on it.
Id. at 13. Mr. Cross did not wish to withdraw his plea at that time—“I don’t have a
problem with the guilty plea”—but he was not willing to serve 63 months in prison
when so many issues were outstanding. Id. at 14.
Mr. Margulis agreed that Mr. Cross was uncomfortable with the guilty plea
in light of the prospective sentence. The attorney-client relationship had soured not
only because of PSR objections but also due to Mr. Cross’s reservations about his
guilt. Id. at 17. The court reminded Mr. Cross that it had ensured his plea was
knowing and voluntary during the plea hearing. Id. at 17-18. Mr. Cross had
known then what the sentencing process would look like. Id. at 18-19. The court
continued:
At this point, you have pled guilty. I have never let anyone
withdraw a plea. I don’t know of any reason why I would here. All
that’s left to do is the sentencing hearing, which means that if you
have objections to the presentence report, which is what I told you
over and over before, then your lawyer needs to file those and I’ll take
18

Petition for Certiorari-Cross
From Seventh Circuit to Supreme Court

them up. And all this other stuff you want to tell me, you can tell me
at the time of sentencing.
Id. at 19. The court then gave Mr. Cross the option to keep Mr. Margulis and
proceed to sentencing promptly or to have the court appoint a new lawyer, which
would delay sentencing. Id. at 19. Mr. Cross was equivocal

I just have some

reservations. Like he says, we’ve never had any personality

so the court cut

him off and gave him a new attorney. Id. at 19—20. Mr. Cross again tried to explain
his position:
There’s some issues. And I’m not trying to—I told him the other day,
I don’t have a problem with the plea. ... But I have some concerns
about this case. I’ve pled guilty. I realize that. And I’ve got to deal
with it. But I have some concerns.
Id. at 20.
Those concerns manifested themselves into a pro se “Request for Status
Hearing” Mr. Cross mailed to the court later that day upon returning to jail. R. 124.
He alleged that the court had not specifically addressed all five charges at the plea
hearing and that his lawyer had not told him of substantial defenses he could have
raised. Id. at 2. “[Ajttomeys today are ‘plea attorneys’ and lack knowledge of
actual defensive abilities.” Id.
In part, Mr. Cross defended his conduct by denying the existence of deceit.
One bank, for example, “knew, as others did, there was no funds because they
called California and still allowed the checks to be cashed. Notably, Defendant has
repaid banks by restitution and agreements, thus showing no intent to defraud.” Id.
at 2-3. He admitted using NSF checks “to induce the bank to make a loan, secured
or unsecured, which they did,” but denied any intent to defraud. Id. at 5. The
credit of the Defendant warranted the bank not to place a hold on the deposits.” Id.
Under the law, Mr. Cross contended, he had not committed bank fraud:
19
Petition for Certiorari-Cross
From Seventh Circuit to Supreme Court

[Cases] make[] plain that the mere depositing of a check is not a
representation nor false/fraudulent statement nor is it a scheme to
defraud. Defendant’s actions do not fall under the criteria of bank
fraud, ... as indicated by [Bean] (presentation of a check does not
make a “false statement” that the account contains sufficient funds).
Id. at 5-6. Mr. Cross thus did not know what he pleaded guilty to. He asked the
court to set a hearing to either clarify the charges or to allow him to withdraw his
guilty plea. Id. at 6.
The motion was summarily stricken, because it was filed pro se. R.124.
Summer came and went, as did Mr. Cross. The U.S. Marshals had borrowed him
from the State of Kentucky , where he was facing other charges, and the State
wanted to resolve its case. See R.136. So after spending time in Kentucky, Mr.
Cross returned to southern Illinois in November. See R.140.
Mr. Cross maintained he was not guilty upon his return. In his view,
“[b]anks approve money to be paid out, sell me deteriorated real estate, and then
come to the courts to collect with criminal damages!” R. 150 at 3. His lawyer
refused to file a motion to withdraw the plea, though, and told him that he would
have to ask the court to represent himself if he wanted it filed. R.153 at 6. So
before sentencing Mr. Cross filed three pro se motions: to terminate counsel, to
withdraw his guilty plea, and to dismiss the case. R.154 at 1.
The motion to withdraw the plea “incorporated” the stricken filing from May
mentioned above. R. 152 at 1. Mr. Cross alleged that he had pleaded guilty because
his lawyer told him he had no defense and the only way out was a guilty plea. Id.
But Mr. Cross did some research after the guilty plea and realized that he “may not
be guilty of such offense” for a number of reasons. Id. at 2. For one, he was
concerned that the indictment did not allege that he acted with the “intent to
defraud.” Id. at 2-3. He continued to express confusion about the indictment s list
Petition for Certiorari-Cross
From Seventh Circuit to Supreme Court

20

of seven banks, when it contained five charges concerning four banks. Id. at 4. And
he repeated his bottom-line problem with the plea:
[T]he defendant did not commit the overt acts to establish a bank
fraud offense, Bean, 18 F.3d 1367. ...
In the plea hearing ... defendant admits he deposited checks knowing
were insufficient at the time of deposit, there was no representation
upon deposit, there was no “intent” to defraud, further defendant was
given instant credit by the bank ....
R. 152 at 5. In Mr. Cross’s view, he had not admitted to fraud. “There was no
misrepresentations, F.I. numbers, S.S. and other information was all valid[.] [T]he
defendant may have unusual business tacits [sic], but, such are not illegal, yet the
Defendant’s due process is being violated.” Id. at 6. Mr. Cross could not get a
straight answer from his attorney for why his admitted conduct was bank fraud
under Bean, 18 F.3d at 1370. Id. at 7. “Therefore,” he summarized, “the Defendant
did not enter into a guilty plea knowing and voluntary, McCarthy, as well, a
question whether the Defendant did actually commit bank fraud at all. Id. at 8.
But as she watched the shackled septuagenarian begin to argue his motion at
sentencing, the district judge was not swayed. “I don’t think anything has changed
at all. I went back and looked at your change of plea transcript. And we went
through it very carefully.” Sentencing Tr. at 4-5. She continued:
Mr. Verseman went through a very long explanation of what
the government’s evidence would be if we had a trial. ... And you
acknowledged that you did it. I think, in fact, you maybe wanted to
quibble with a few facts, but you acknowledged that you knew that
there wasn’t enough to cover the checks when you deposited them.
Id. at 5. Mr. Cross decided to plead guilty “on the eve of trial,” and the judge
conducted the plea colloquy herself to be “100 percent confident that Mr. Cross
knew what he was doing. Id. at 5-6. Mr. Cross had been through three lawyers and
Petition for Certiorari-Cross
From Seventh Circuit to Supreme Court

21

several revisions of the PSR, and the court was done delaying the case. “[W]e
could quibble all day about maybe little facts, but I don’t think anything of the
major facts underlying what we talked about at the tune of the change of plea
that anything whatsoever has changed.” Id. at 6.
The court denied the motion to withdraw the plea on the merits. It was
convinced at the change of plea hearing that Mr. Cross “was knowingly and
voluntarily pleading guilty to each of the counts,” and it was still hilly satisfied
that the plea was knowing and voluntary.” Id. at 16. The court could not
understand why Mr. Cross “just wants to continue to prolong these proceedings
and not proceed to sentencing,” but the time had come to proceed, because “there
is just no reason here whatsoever that I would allow Mr. Cross to withdraw his
guilty plea at this time.” Id. at 16-17. “[Tjhere is just simply no reason at all, let
alone a fair and just reason, at this point to warrant withdrawal of the guilty plea.”
Id. at 17.
The court arrived at that conclusion after considering both Mr. Cross’s
motion to terminate counsel and the motion to withdraw guilty plea. The
prosecutor characterized Mr. Cross’s motion to terminate counsel as a motion to
substitute counsel, though the motion makes no request for a new lawyer. Sent.
Tr. at 6-12; R.153. Indeed, Mr. Cross filed the motions (along with a motion to
dismiss) with the understanding that he would have to represent himself on
them: “[Cjounsel refuses to file any motions, and directed the Defendant to
request the Court to represent himself; therefore, the Defendant filed a motion

Petition for Certiorari-Cross
From Seventh Circuit to Supreme Court

22

accordingly.” R.154 at 1. But when Mr. Cross tried to respond to the prosecutor’s
characterization of his motion to terminate counsel—“Your Honor, to respond to
Mr. Verseman there”—he was cut off, because he was represented by a lawyer.
Mr. Cross, you have counsel. You are represented by very able
counsel. I’ve been patient by even taking up these motions that you
filed. And you will have a right to do what we call an allocution
during your sentencing, which is a time that you can say anything that
you wish to say. But I don’t need to hear anything else from you
at this point right now.
Sent. Tr. at 13. The court then adopted the prosecutor’s understanding of the
“Motion to Terminate Counsel” and found that Mr. Cross was not entitled to
another lawyer because “[t]here is no basis here for substitution of counsel.” Sent.
Tr. at 13-14.
The court never asked Mr. Cross whether he wanted to represent himself,
notwithstanding his “Motion to Terminate Counsel” that was premised on his
understanding that he would need “to request the Court to represent himself.
R.l 54 at 1. Instead, it found that Mr. Cross had counsel, and thus had no right to
file motions by himself. So the motion to withdraw the guilty plea was denied not
only because “there is no basis for granting [it],” but also because it was filed pro
se. Sent. Tr. at 17.
SUMMARY OF REASONS FOR GRANTING THE PETITION
The district court erred when it accepted Mr. Cross’s guilty plea to bank
fraud. A guilty plea is invalid if the defendant pleads guilty without having been
informed of all the elements of the charged crime. It is similarly void if the
defendant does not understand the essential elements of the crime.
Mr. Cross was charged with bank fraud. That offense has “materiality of
falsehood” as an element of the offense. Neder v. United States, 527 U.S. 1, 25
(1999). It also requires that a person do more than simply write bad checks. When
23
Petition for Certiorari-Cross
From Seventh Circuit to Supreme Court

Mr. Cross pleaded guilty, though, he was not informed that a scheme to defraud
under the bank fraud statute required a material misrepresentation. And the district
court did not elicit an admission from Mr. Cross that he intended to defraud the
banks. Instead, Mr. Cross admitted only that he knowingly deposited bad checks
drawing on an account he owned into an account he owned. That admission was
insufficient to meet the elements of bank fraud. Yet on that admission alone, the
district court refused to allow Mr. Cross to withdraw his guilty plea
notwithstanding his claims that he did not intend to defraud the banks or use deceit.
Finally, courts have repeatedly acknowledged that federal jurisdiction over a
bank fraud claim exists solely because FDIC covers the victim of any losses.
United States v. Perez-Ceballos, 907 F.3d 863, 867-868 (5th Cir., 2018)
(Jurisdiction by FDIC insurance); United States v. Wells, 111 F.3d 603, 607 (7th,
1999) (Restitution only set by statute and FDIC coverage); United States v.
Adepoju, 756 F.3d 250, 255 (4th Cir. 2014) (Federally insured is element of
statute); United States v. Forchette, 220 F. Supp. 2d 914, 921-922 (E Wis. DC,
2002) (statute element requires funds insured by FDIC). A letter from FDIC,
however, to Mr. Cross’s friend indicates plainly FDIC does not cover losses for
Bank Fraud and banks have private insurance for this type coverage. Thus, set by
Wells and others, only banks insured and where funds are covered by FDIC affords
a court jurisdiction in a bank fraud case. FDIC makes plain they do not cover Bank
Fraud funds and loses in banks they insure. Thus, restitute and the statutory
element is not met.
Mr. Cross did not enter a knowing and voluntary plea to bank fraud and
Government failed to prove all elements of the bank fraud. The court thus abused
its discretion in denying his motion to withdraw his plea and not dismissing the

Petition for Certiorari-Cross
From Seventh Circuit to Supreme Court

24

case for lack of jurisdiction thereby violating the Fifth Amendment. This Court
should vacate the convictions and remand for further proceedings.
REASONS FOR GRANTING THE PETITION
/.

Whether the Decision below squarely conflicts with McCarthy
v. United States and Neder v. United States, where Mr. Cross
Held a Constitutional Right to know Both the Nature and Cause
of the Charges Against him* which Included Both the Materiality
of the charge and Intent for any Plea to be valid under a Rule 11
Plea?

II.

Whether the Decision Below squarely conflicts with Neder
v. United States where a plea of guilt relating to a defect in
the Indictment, affects jurisdiction of the Court, and Where
the Indictment Fails to Charge an Offense, does the Guilty
Plea Waive the defects?
On appeal to the Seventh Circuit, Mr. Cross argued that his plea was invalid

because the Court did not inform him about the nature of the charge and did not
elicit an adequate factual basis for the plea. Mr. Cross also challenged the
Indictment on grounds that it did not contain all the necessary elements and did not
track the statutory language. Mr. Cross maintained that the restitution not valid
because the statute and charges were not covered by the FDIC transactions to
insure the banks and the charges in the Indictment of bank fraud failed to include
“intent” and “materiality.”
Mr. Cross was charged in Indictment with five charges under 18 U.S.C. §
1344 (1) which states:
Whoever knowingly executes, or attempts to execute, a scheme
or artifice(1) to defraud a financial institution; or

Petition for Certiorari-Cross
Front Seventh Circuit to Supreme Court

25

shall be fined not more than $1,000,000 or imprisoned not more
than 30 years, or both.
This Court has long ago held the Bank Fraud Statute included an element of
“intent,” and it required proof against a Defendant. See, e.g. Coffin v. United
States, 162 U.S. 664, 667 (1896) (Essential element of intent, bank fraud); Evans v.
United States, 153 U.S. 584, 587-588 (1894) (Indictment or statute must show
every element of the offense, bank fraud). The more recent case is Neder v. United
States, 527 U.S. 1, 25 (1999) (“We hold that materiality of falsehood is an element
of the federal mail fraud, wire fraud, and bank fraud statutes”).
Rule 1 l's requirements and its purposes through a conviction voluntariness
hearing are particularly as held in McCarthy v. United States, 394 U.S. 459, 471472 (1969). Like McCarthy, Petitioner here was 75 years old and in poor health at
the time he entered his plea. He plead guilty to a crime that requires a knowing
and willful" attempt to defraud a bank of funds; yet, throughout his sentencing
hearing, he and his counsel insisted that his acts were merely "neglectful,"
"inadvertent," of mere non-sufficient funds and committed without ‘any disposition
to deprive any bank of its due. ’ Like in McCarthy, these remarks cast considerable
doubt on the Government's assertion that petitioner pleaded guilty with full
awareness of the nature of the charges against him. But, like in McCarthy, out of
the same court of Appeals, confronted with petitioner's statements that he entered
his plea of his "own volition," his counsel's statement that he explained the nature
of the charges, and evidence that petitioner did obtain money from banks, both the
District Court and the Court of Appeals concluded that petitioner's guilty plea was
voluntary. Such violates the Article III and the Fifth, Sixth and Ninth
Amendment’s protections.
Despite petitioner’s inability to convince the courts below that he did not
fully understand the charges against him, it is certainly conceivable that he may
26
Petition for Certiorari-Cross
From Seventh Circuit to Supreme Court

have intended to acknowledge only that he in fact owed the banks the money it
claimed without necessarily admitting that he committed the crimes charged, for
those crimes requires the very type of specific intent that he repeatedly disavowed.
See Sansone v. United States, 380 U.S. 343 (1965). Moreover, since the elements
of the offenses were not explained to petitioner, specifically “Intent,” and since the
specific acts of bank fraud do not appear of record, contrary to the Seventh
Circuit’s amended ruling which conflicts with other Circuits and this Court s
holding, see e.g. United States v. Lyons, 898 F.2d 210, 214 (1st Cir., 1990) (Rule 11
inquiry is mandated when a defendant by plea does not contest a guilty finding, a
court's noncompliance with that mandate can constitute reversible error); Araromi
v. United States, 2014 U.S. Dist. LEXIS 56891, * 80 (WD, Tex, April 23, 2014)
(Because McCarthy no longer governs the Fifth Circuit, Appellate Counsel did not
render ineffective assistance by failing to cite it))5, it is also possible that if
petitioner had been adequately informed he would have concluded that he was
actually innocent of the charges because a mere drafting of a check does not
constitute bank fraud. United States v. Bean, 18 F.3d 1367, 1370-1371 (7th Cir.,
1994) (presentation of a check does not make a "false statement" that the account
contains sufficient funds) (Citing, inter alia: Williams v. United States, 458 U.S.
279, 73 L. Ed. 2d 767,102 S. Ct. 3088 (1982)).
On the other hand, had the District Court scrupulously complied with Rule
11, there would be no need for such speculation. At the time the plea was entered,
petitioner's own replies to the court's inquiries might well have attested to his

5 Araromi, 2014 U.S. Dist. LEXIS 56891, * 80 contends that Congress abrogated Rule 11 and
McCarthy no longer applies to the courts and only by showing that substantive rights are affected
does error come into play. A substantive right is like life, liberty, property, or reputation, while
procedure may be Rule 11 standards, but if Rule 11 affects a substantive right, like losmg one s
liberty by a plea of guilt, by defects, Rule 11 comes into play and McCarthy would still be fully
applicable.
Petition for Certiorari-Cross
From Seventh Circuit to Supreme Court

27

understanding of the essential elements of the crime charged, including the
requirement of specific intent, and to his knowledge of the acts which formed the
basis for the charge, however, here, Government and the Court gave only four (4)
elements and “intent” was not one of them. Only after the plea Petitioner Cross
learned intent was required and sought to withdraw his plea because he claimed he
was not guilty of bank fraud.
Like in McCarthy, prejudice inheres in a failure to comply with Rule 11, for
noncompliance deprives a defendant of the Rule's procedural safeguards that are
designed to facilitate a more accurate determination of the voluntariness of his
plea. A defendant whose plea has been accepted in violation of Rule 11 should be
afforded the opportunity to plead anew not only will ensure that every accused is
afforded those procedural safeguards, but also will help reduce the great waste of
judicial resources required to process the frivolous attacks on guilty plea
convictions that are encouraged, and are more difficult to dispose of, when the
original record is inadequate. It is, therefore, not too much to require that, before
sentencing defendants to years of imprisonment, that district judges take the few
minutes necessary to inform them of their rights and to determine whether they
understand the action they are taking. McCarthy v. United States, 394 U.S. 459,
471-472 (1969).
Petitioner Cross prays the Court will acknowledge the Government and
Court failed to give any element of “intent” before accepting the plea of guilty and
refused to withdraw. That the Seventh Circuit failed to address this matter, then on
rehearing, amended their opinion to attempt to show an intent, but failed, like in
McCarthy, to acknowledge Petitioner Cross was never given the element of
“intent” for a knowing, voluntary and intelligent plea which affects Mr. Cross s
liberty. This violates the Article III and the Fifth, Sixth and Ninth Amendment’s
Petition for Certiorari-Cross
From Seventh Circuit to Supreme Court

28

protections. Petitioner Cross prays this Court will hear this matter due to conflict in
the Circuits or, in the alternative, would remand, like in McCarthy, to withdraw the
plea and plea anew because the court did not comply with Rule 11 or give all
elements of intent for a knowing and voluntary plea.
III.

Whether The Decision of the District Court that it
holds jurisdiction over a Claim of Bank Fraud,
where the Bank nor victims are covered by FDIC
Insurance for any loss from Bank Fraud, conflicts
with United States v. Perez-Ceballos, intel alia, where
the charge should be a State claim, not Federal?
This is a case of first impression and affects all the States of the Union.

Courts have repeatedly acknowledged that federal jurisdiction over a bank fraud
claim exists solely because FDIC covers the victim of any losses. United States v.
Perez-Ceballos, 907 F.3d 863, 867-868 (5th Cir., 2018) (Jurisdiction by FDIC
insurance); United States v. Wells, 111 F.3d 603, 607 (7th, 1999) (Restitution only
set by statute and FDIC coverage); United States v. Adepoju, 756 F.3d 250, 255
(4th Cir. 2014) (Federally insured is element of statute); United States v. Forchette,
220 F. Supp. 2d 914, 921-922 (E Wis. DC, 2002) (statute element requires funds
insured by FDIC). A letter from FDIC, however, to Mr. Cross’s friend indicates
plainly FDIC does not cover losses for Bank Fraud and banks have private
insurance for this type of coverage. See Document 124, filed 05/29/2018,
“Defendant’s Summary of Plea Hearing, Request for Status.” Thus, set by Wells
and others, only if the banks insured have their funds covered by FDIC does it
afford a court jurisdiction in a bank fraud case.
FDIC makes plain, via their letter, they do not cover Bank Fraud funds and
loses in banks they insure6. Document 124, filed 05/29/2018, “Defendant^
6 In recent years banks and private equity investors have partnered with the FDIC by purchasing
interests in FDIC-owned LLCs holding loan portfolios seized from failed banks. These
Petition for Certiorari-Cross
From Seventh Circuit to Supreme Court

Summary of Plea Hearing. Request for Status.” Although federal courts have for
years convicted people under the bank fraud statutes, which requires FDIC
insurance for authority, if the funds are not covered by FDIC, the statute fails and
is unconstitutional. In Ex parte Siebold, 100 U.S. 371, 25 L. Ed. 717 (1880), this
Court addressed why substantive rules must have retroactive effect regardless of
when the defendant’s conviction became final. At the time of that decision,
“[mjere error in the judgment or proceedings, under and by virtue of which a party
is imprisoned, constitute[d] no ground for the issue of the writ.” Id., at 375, 25 L.
Ed. 717. Before Siebold, the law might have been thought to establish that so long
as the conviction and sentence were imposed by a court of competent jurisdiction,
no habeas relief could issue. In Siebold, however, the petitioners attacked the
judgments on the ground that they had been convicted under unconstitutional
statutes. The Court explained that if “this position is well taken, it affects the
foundation of the whole proceedings.” Id., at 376, 25 L. Ed. 717. A conviction
under an unconstitutional law
“is not merely erroneous, but is illegal and void, and cannot be
a legal cause of imprisonment. It is true, if no writ of error lies, the
judgment may be final, in the sense that there may be no means of
reversing it. But... if the laws are unconstitutional and void, the
arrangements allow the FDIC to retain a financial interest in the assets while transferring
management responsibilities to its co-venturers, including managing the loan enforcement
process and overseeing the ultimate disposition of any collateral. This process frequently
involves litigation. Federal court is often the preferred venue for this type of contract-based
judicial action for a variety of reasons, including predictability of outcome; clear precedent;
avoiding the risk of judicial bias; and a tendency on the part of federal judges to construe
contracts and statutes plainly and as written. But co-venturers must recognize that the mere fact
of partnering with the FDIC may prevent the venture from using the federal courts. In a decision
issued on October 27, 2011, the U.S. District Court for the District of Nevada dismissed a case
brought by an FDIC co-venture for lack of jurisdiction. In RES-NV TVL, LLC v. Towne Vistas,
LLC 2011 U.S. Dist. LEXIS 124731 * | 2011 WL 5117886 (U.S.D.C. Nev. 2011), the court
found that it lacked diversity jurisdiction over a lawsuit brought by that co-venture to recover on
an eight-figure deficiency balance. See also see RES-NC Settlers Edge, LLC v. Settlers Edge
Holding Company. LLC, 2011 U.S. Dist. LEXIS 99728 * 12011 WL 3897729 (SepO, 2011)
Petition for Certiorari-Cross
From Seventh Circuit to Supreme Court

Circuit Court acquired no jurisdiction of the causes.” Id, at 376-377,
25 L. Ed. 717.
As discussed, the Court has concluded that the same logic governs a
challenge to a punishment that the Constitution deprives States of authority to
impose. Penry v. Lynaugh, 492 U.S. 302,330,109 S. Ct. 2934, 106 L. Ed. 2d 256
(1989); see also Friendly, Ts Innocence Irrelevant? Collateral Attack on Criminal
Tiidptnente- 38 U. Chi. L. Rev. 142, 151 (1970) (“Broadly speaking, the original
sphere for collateral attack on a conviction was where the tribunal lacked
jurisdiction either in the usual sense or because the statute under which the
defendant had been prosecuted was unconstitutional or because the sentence was
one the court could not lawfully impose” (footnote omitted)). A conviction or
sentence imposed in violation of a substantive rule is not just erroneous but
contrary to law and, as a result, void. See Siebold, 100 U.S., at 376, 25 L. Ed. 717
In support of its holding that a conviction obtained under an unconstitutional
law warrants habeas relief, the Siebold Court explained that [a]n unconstitutional
law is void, and is as no law.” Ibid. A penalty imposed pursuant to an
unconstitutional law is no less void because the prisoner’s sentence became final
before the law was held unconstitutional. There is no grandfather clause that
permits States to enforce punishments the Constitution forbids. To conclude
otherwise would undercut the Constitution’s substantive guarantees. Writing for
the Court in United States v. United States Coin & Currency, 401 U.S. 715, 91 S.
Ct. 1041, 28 L. Ed. 2d 434 (1971), Justice Harlan made this point when he
declared that “[n]o circumstances call more for the invocation of a rule of complete
retroactivity” than when “the conduct being penalized is constitutionally immune
from punishment.” Id. 401 U.S., at 724,91 S. Ct. 1041, 28 L. Ed. 2d 434. United
States Coin & Currency involved a case on direct review; yet, for the reasons
Petition for Certiorari-Cross
From Seventh Circuit to Supreme Court

31

explained by this Court, the same principle should govern the application of
substantive rules on collateral review. As Justice Harlan explained, where a State
lacked the power to proscribe the habeas petitioner’s conduct, “it could not
constitutionally insist that he remain in jail.” Desist v. United States, 394 U.S. 244,
261, n. 2, 89 S. Ct. 1030, 22 L. Ed. 2d 248 (1969) (dissenting opinion).
If the FDIC does not cover the funds charged in a bank fraud case, then the
is misstated and misread, and the conviction cannot stand. The elements of
statute is
a § 1344(1) violation is (1) the defendant knowingly executed or attempted a
scheme or artifice to defraud a financial institution, (2) he did so with intent to
defraud, and (3) the institution was a federally insured or chartered bank. United
States v. Brandon, 298 F.3d 307, 311 (4th Cir. 2002); see also United States v.
Flanders, 491 F.3d 1197 (10th Cir. 2007). The statute is broad as to the third
element, however, under a reasonable person standard, one would conceive that
insured means the funds themselves are covered by the FDIC. This would be a
logical reasoning. If so, bank fraud cases in federal courts have been incarcerated
wrongfully for years now and such actions in a land of law is egregious to say the
least. Such conduct violates the Article III and the Fifth, Sixth and Ninth
Amendment’s protections. If the funds are not covered by FDIC, as FDIC claims in
their letter, then the third element fails, and the conviction must be overturned.
This Court has stated that it is the duty of this Court to say what the law is! It
would be difficult to imagine a more question-begging analysis. "The very
foundation of the power of the federal courts to declare Acts of Congress
unconstitutional lies in the power and duty of those courts to decide cases and
controversies properly before them." United States v. Raines, 362 U.S. 17, 20-21,
80 S. Ct. 519,4 L. Ed. 2d 524 (1960) (citing Marbury v. Madison, 5 U.S. 137,1
Cranch 137,2 L. Ed. 60 (1803) (emphasis added). This Court’s power "to say what
Petition for Certiorari-Cross
From Seventh Circuit to Supreme Court

32

the law is" is circumscribed by the limits of its statutorily and constitutionally
conferred jurisdiction. See Lujan v. Defenders of Wildlife, 504 U.S. 555, 573-578,
112 S. Ct. 2130, 119 L. Ed. 2d 351 (1992). And that is precisely the question m
this case: whether the Constitution confers jurisdiction on federal courts to decide
petitioners' claims. It is both irrational and arrogant to say that the answer must be
yes, because otherwise this Court would not be Supreme.
Government would contend if the bank fraud was held unconstitutional, it
would affect a numerous amount of cases and put convicted people back unto the
street, but not to correct an illegal statute and keeping those wrongfully
incarcerated inside violates due process and the very foundation of what American
represents. States, by contrast, have considerable expertise in enforcing their laws
and have enforced state laws abusive financial bank practices more than has FDIC
or the Federal Government.7 States are more familiar with local conditions and
practices than is the federal government and can more quickly recognize and
respond to new predatory practices as they arise, As the Government increasingly
permits national banks and their subsidiaries to expand into nonfmancial areas,
states’ greater expertise and experience in identifying abuses in those areas will
become even more essential to protecting consumers’ interest. Thus, the issue
whether 1344 (1) is constitutional or not is of national importance and affects both
state and federal convictions through all fifty States of the Union and D.C. Not to
correct such violations of Article III and the Fifth, Sixth and Ninth Amendment’s
protections indicates no court holds to the Law and allows corruption and people to

’ For examples of enforcement efforts against operating subsidiaries under state laws see
First Horizon Home Lorn Corp., No. 2722004 (N.Y. Sup. Ct. filed Jan 16,2004) available at
... nan state nv.usfrress20044an4lorizon5.pdf (last visited oct. 2,2008) state
enforcement action under state unlawful debt collection and deceptive practices law).
Petition for Certiorari-Cross
From Seventh Circuit to Supreme Court

be incarcerated unlawfully. Thus, this Court holds a duty to hear such an important
issue and if found the FDIC must cover the funds and does not, reverse the action
back to have Petitioner’s conviction vacated.
CONCLUSION
The Petition for a Writ of Certiorari should be granted.

Respectfully submitted,
/7)
Alfred^Cross^—
Reg.4rt)0722-027
FCI Butner
P.O. Box 1000
Butner, NC 27529
Petitioner, Pro se.

Petition for Certiorari-Cross

From Seventh Circuit to Supreme Court

34

